No:
IN THE SUPREME COURT OF THE UNITED STATES

NOBLE COOPER; NORMAN COOPER, ESTATE OF; JENNIFER
COOPER; NATHAN COOPER; CARLY LOPEZ, Individually and as
Next Friend of Nason Cooper and Nevon Cooper, Minors;
NASON COOPER, A Minor; NEVON COOPER, A Minor,
Applicants,
v.
OFFICER OLIVER FLAIG; OFFICER ARNOLDO SANCHEZ,
Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I Edward L. Piña, a member of the Supreme
Court Bar, hereby certify that one copy of the attached Application was served by mail and one
copy was served by electronic means on December 26, 2019, on the following:
N. MARK RALLS
HOBLIT DARLING RALLS HERNANDEZ & HUDLOW, LLP
6243 IH-10 West, Suite 601
San Antonio, Texas 78201
(210) 224-9991
mralls@hdr-law.com
I further certify that all parties required to be served have been served.

/s/ Edward L. Piña
EDWARD L. PIÑA
Counsel of Record

